No. A-_________

In the Supreme Court of the United States
JERYME MORGAN,
Applicant,
V.

MINH SCHOTT, TIM VEATH, AND HUDSON MAYNARD,
Respondents.
CERTIFICATE OF SERVICE
I, Joshua D. Yount, counsel for applicant and a member of the Bar of this
Court, certify that on this 26th day of April, 2019, I caused one copy of this
application for an extension of time within which to file a petition for a writ of
certiorari to be served by overnight mail on the following:
Nadine Wichern
Office of the Attorney General
100 W Randolph St.
Chicago, Illinois 60601
(312) 814-3276
I further certify that all parties required to be served have been served.
_/s/ Joshua D. Yount_______
JOSHUA D. YOUNT
Counsel of Record
Mayer Brown LLP
71 South Wacker Drive
Chicago, IL 60606
(312) 782-0600
jyount@mayerbrown.com

